HHS/OIG, Audit -"Review of Postretirement Benefit Costs Claimed by Highmark, Inc.,"(A-07-04-00166)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Postretirement Benefit Costs Claimed by Highmark, Inc.," (A-07-04-00166)
August 17, 2005
Complete
Text of Report is available in PDF format (782 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of the postretirement benefit (PRB) costs Highmark
claimed for Medicare reimbursement on an accrual basis for fiscal years (FY) 1998 through 2002.  We
found that the PRB costs Highmark claimed on an accrual basis for FYs 1998 through 2002 were allowable.  However,
Highmark did not include in its Final Administrative Cost Proposals (FACPs) all of the PRB costs that
were allowable pursuant to Federal regulations.  As a result, for FYs 1998 through 2002, Highmark
did not claim $2,961,526 of PRB costs that was allowable for Medicare reimbursement.
We recommended Highmark should revise its FACPs for FYs 1998 through 2002 or submit a claim for additional
allowable PRB costs of $2,961,526. Highmark did not agree with our calculations of allowable PRB pension
costs.  Highmark also stated that it did not need to seek CMS approval for its change in accounting
practice for PRB costs, because it was a continuation of the prior PBS program.  Additionally,
Highmark disagreed with our statement in the Other Matters section that Highmark should be precluded
from including unfunded PRB costs in any future claims to the Federal Government.  Highmark believed
that by requiring contractors to use [S]FAS 106 in calculating PRB costs, the FAR irreconcilably conflicts
with the [Internal Revenue Service] limitations on VEBA funding.